No. 21A_____
IN THE

Supreme Court of the United States
PATSY K. COPE; ALEX ISBELL, as Dependent Administrator of, and on behalf of,
Estate of DERREK QUINTON GENE MONROE, and his heirs at law,
Applicants,
v.
LESLIE W. COGDILL; MARY JO BRIXEY; JESSIE W. LAWS,
Respondents.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Catherine E. Stetson, a
member of the Bar of this Court, hereby certify that on October 13, 2021, a copy of
the foregoing Application for an Extension of Time to File a Petition for a Writ of
Certiorari was served by first-class U.S. mail, postage prepaid, to the following counsel:
Jon Mark Hogg
Amanda N. Crouch
JACKSON WALKER L.L.P.
135 W. Twohig Ave., Suite C
San Angelo, Texas 76903
(325) 481-2560
jmhogg@jw.com
acrouch@jw.com
Counsel for Respondents

I further certify that all parties required to be served have been served.

Date: October 13, 2021

/s/ Catherine E. Stetson
Catherine E. Stetson

2

